<html>
<title> - WMATA AFTER SAFETRACK</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







                         WMATA AFTER SAFETRACK

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 29, 2017

                               __________

                            Serial No. 115-5

                               __________

Printed for the use of the Committee on Oversight and Government Reform




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
        
        
        
        
                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-716 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                        
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              Committee on Oversight and Government Reform

                     Jason Chaffetz, Utah, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Trey Gowdy, South Carolina           Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Virginia Foxx, North Carolina        Robin L. Kelly, Illinois
Thomas Massie, Kentucky              Brenda L. Lawrence, Michigan
Mark Meadows, North Carolina         Bonnie Watson Coleman, New Jersey
Ron DeSantis, Florida                Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Val Butler Demings, Florida
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matt Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     John Sarbanes, Maryland
Gary J. Palmer, Alabama
James Comer, Kentucky
Paul Mitchell, Michigan

                   Jonathan Skladany, Staff Director
                  Rebecca Edgar, Deputy Staff Director
                    William McKenna, General Counsel
                       Patrick Hartobey, Counsel
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director

                                 ------                                

                 Subcommittee on Government Operations

                 Mark Meadows, North Carolina, Chairman
Jody B. Hice, Georgia, Vice Chair    Gerald E. Connolly, Virginia, 
Jim Jordan, Ohio,                        Ranking Minority Member
Mark Sanford, South Carolina         Carolyn B. Maloney, New York
Thomas Massie, Kentucky              Eleanor Holmes Norton, District of 
Ron DeSantis, Florida                    Columbia
Dennis A. Ross, Florida              WM. Lacy Clay, Missouri
Rod Blum, Iowa                       Brenda L. Lawrence, Michigan
                                     Bonnie Watson Coleman, New Jersey
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 29, 2017...................................     1

                               WITNESSES

Mr. Paul Wiedefeld, General Manager, Washington Metropolitan Area 
  Transit Authority
    Oral Statement...............................................     5
    Written Statement............................................     7
Mr. Mark L. Goldstein, Ph.D., Director of Physical Infrastructure 
  Issues, U.S. Government Accountability Office
    Oral Statement...............................................    20
    Written Statement............................................    22
Mr. Dennis Anosike, Chief Financial Officer, Washington Area 
  Transit Authority

                                APPENDIX

Questions for the Record for Mr. Paul Wiedefeld, submitted by Mr. 
  Meadows, Ms. Comstock, and Mr. Connolly........................    46
Keeping Metro Safe Reliable and Affordable.......................    61
Regional Funding- WMATA GM's Presentation........................    63
Congressional Data...............................................    89
Total Number of Employees in each Department of Office...........    90
Congressional Data...............................................    91

 
                         WMATA AFTER SAFETRACK

                              ----------                              


                       Wednesday, March 29, 2017

                  House of Representatives,
             Subcommittee on Government Operations,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:05 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Mark Meadows 
[chairman of the subcommittee] presiding.
    Present: Representatives Meadows, Hice, Blum, Connolly, 
Norton, and Lawrence.
    Also Present: Representatives Comstock, Raskin.
    Mr. Hice. The Subcommittee on Government Operations will 
come to order. Without objection, the chair is authorized to 
declare a recess at any time.
    For roughly the past year, the Washington Metropolitan Area 
Transit Authority, or WMATA, has been working to respond to a 
serious safety wake-up call. Following a series of smoke- and 
fire-related incidents that bore unsettling similarities to the 
deadly L'Enfant Plaza incident, WMATA began an aggressive 
effort to repair the broken system. That effort known as 
SafeTrack has now completed the majority of its scheduled work 
and is scheduled to end this June.
    There are approximately three months until the end of 
SafeTrack and the start of a new effort to remedy WMATA's 
problems and redeem the system in the eyes of passengers. 
Today's hearing will examine where SafeTrack was successful and 
where it may have failed in order to ensure that the next 
maintenance effort, Back2Good, lives up to its name.
    This month, GAO released its report reviewing what 
SafeTrack did right and where it slipped. That review found 
that while SafeTrack appeared to be meeting repair goals, the 
planning for the program fell short. GAO found that SafeTrack's 
repair and maintenance efforts were based on incomplete 
inspection data. The result of this was that infrastructure 
that should have been high priority actually slipped through 
the cracks, creating further safety hazards. As a result, 
serious safety incidents continued to occur, including the East 
Falls Church derailment.
    As WMATA begins to shift its efforts away from addressing 
deferred maintenance toward preventative maintenance, it's 
important that it apply lessons learned from SafeTrack's 
failures. WMATA's troubles are not limited to maintenance 
alone, however. The Back2Good program will focus heavily on 
integrating WMATA's newest 7000 series cars into its fleet. 
These new cars will replace some of the oldest and least 
reliable cars in WMATA's fleet. However, there are serious 
questions about those 7000 series, their reliability, as well 
as the potential impact they are having on the rail 
infrastructure itself.
    WMATA is also facing a troubling financial future. 
Recently, they adopted a budget for fiscal year 2018, which Mr. 
Wiedefeld characterized as a reality check. While WMATA may 
have escaped a serious financial crisis for the upcoming fiscal 
year, it did so only by the skin of its teeth. Many of the 
solutions used to address the dire financial reality WMATA 
faced will not be available in the future.
    Rider rates are falling rapidly, and as a result, so too 
are its incoming revenues. These problems are not going to get 
better by themselves. WMATA must address not only its failing 
and falling revenues, but also its rapidly increasing expenses.
    So I want to thank each of the witnesses for being here 
with us today. I look forward to hearing from you as we work to 
make WMATA safe, secure, and successful for the future.
    And with that, I'll recognize Mr. Connolly, the ranking 
member of the subcommittee, for his opening statement.
    Mr. Connolly. Thank you, Mr. Chairman, and thank you for 
that very thoughtful opening statement. And I thank my friend, 
Mr. Meadows, the chairman of our subcommittee, for his support 
on exploring this issue and trying to find common ground for 
solutions.
    And I want to welcome our panel where we can talk about 
both where we've been, but more importantly, where are we 
headed. Today, we'll examine the shortcomings and benefits of 
the yearlong WMATA rehabilitation program known as SafeTrack as 
outlined in the GAO report, which we requested.
    This report called, ``Improved Planning of Future 
Rehabilitation Projects Could Prevent Limitations Identified 
with SafeTrack,'' a long title, confirmed that SafeTrack will 
not fix all of WMATA's systemic and organizational 
deficiencies, nor was SafeTrack intended to. But we should 
welcome GAO's assessment that SafeTrack demonstrates WMATA's 
commitment to preventative maintenance, including the repairing 
of track assets before they break and cause more cost and 
safety impacts.
    The report identified some concerns with SafeTrack, both in 
planning and implementation, and I might add, communication 
with the public and local leaders. While preparing for 
SafeTrack, WMATA did not collect adequate data on the condition 
of rail and nonrail assets, did not consider the cost or 
potential impact on safety outcomes or alternatives--of 
alternatives to SafeTrack, and provided limited advance notice 
to local stakeholders about the significant disruption 
SafeTrack that would cause.
    However, WMATA has improved. The collection and monitoring 
of work performance data enhanced communication with local 
jurisdictions, established independent reviews of SafeTrack, 
and has responded quickly to concerns raised by its safety 
regulator, the FTA.
    I look forward to hearing from WMATA, GAO, and my 
colleagues on ways in which we can promote the adoption of 
GAO's recommendations as we move forward.
    We should also use this opportunity to examine the broader 
challenges facing the Nation's transit system and better 
understand the resources urgently needed to reestablish Metro 
as a safe, reliable transit system that serves the people of 
the metropolitan capital region, the Federal workforce, and the 
19.3 million visitors who come to the Nation's capital every 
year.
    It should come as no surprise that a congressional 
committee tasked with ensuring the efficiency of the Federal 
Government and the safety of its workforce has vested interest 
in the success of this transit system because it delivers more 
than one-third of our Federal workforce to work every day.
    In March 2016, when Metro announced it would shut down for 
24 hours to conduct emergency inspections, the first question 
on everyone's mind was how will the Federal Government operate? 
The Office of Personnel Management, what would it do to 
accommodate the closure? Unlike any other transit system in the 
United States, that was a question we had to ask.
    The Federal Government is the primary stakeholder in this 
transit system, and I certainly look forward to working with my 
colleagues on both sides of the aisle to ensure that that 
Federal workforce and that Federal support for Metro is 
commensurate to its fundamental reliance on the system. We're 
the biggest beneficiaries.
    For several years now, WMATA has been a system in crisis, 
all lights blinking red. The lack of a strict safety culture 
has resulted in derailments, falsified track inspection 
reports, fires, major track defects, and has actually claimed 
lives. Reliability concerns and the crisis in customer 
confidence are depressing ridership, as the chairman indicated, 
by a magnitude that is driving down national transit ridership 
numbers now. And new fare increases, coupled with service cuts, 
are expected to claim as many as 14 million trips in fiscal 
year 2018.
    Members of the WMATA board of directors at times seemed to 
have been incapable of resuscitating, much less managing Metro. 
As someone who has spent more than 22 years working on Metro-
related issues, including rezoning property around Metro 
stations to maximize their potential, approving local operating 
subsidies, helping create local tax districts to fund 
construction of the Silver Line, it has been personally painful 
to me to watch the dysfunction at Metro imperil the transit 
system our region takes so much pride in. And I want to see a 
restoration of the competence in the system.
    General Manager Wiedefeld deserves credit for taking 
decisive action to promote system safety. After successive 
asset failures in the spring of 2016, he implemented a 24-hour 
shutdown of the system and later unveiled SafeTrack. By the end 
of SafeTrack, WMATA will have completed 3 years of maintenance 
in 1 year, including the replacement of 50,000 rail ties.
    In the wake of the March 15 shutdown, I cautioned Mr. 
Wiedefeld that this cannot be the answer long term. You get to 
shut down the entire system once, but you don't get to do it 
again, at least with any credibility, and I know he agreed.
    The completion of SafeTrack, a new industry standard 
preventative maintenance program, the Back2Good program, and 
the soon to be established Metro Safety Commission must cure 
what ails Metro's safety culture.
    But let me end on this. All of this is important, and we 
still have to address other safety things not addressed by 
SafeTrack, like you pointed out, Mr. Chairman, the safety of 
the existing railcar fleet. But in the long run, stability to 
Metro is going to be about financial stability. Can we have a 
stable, dedicated source of revenue that will allow general 
managers in the future and boards to make enlightened decisions 
that anticipate our needs in the future? The tin cup approach 
to financing Metro has to end. It doesn't work anymore.
    Right now, Metro is dependent on two sources of revenue: 
Increasing operating subsidies from the contract members, not 
including, unfortunately, the Federal Government, and secondly, 
fare rate increases. And there's a limit to that elasticity 
demand.
    And so I look forward to this conversation today because I 
think there are some profound questions we have to face far 
beyond SafeTrack, though that's important. And I think you've 
touched on a lot of them, Mr. Chairman, and I certainly look 
forward to working with you, as well as my friends on the other 
side of the aisle, to find a solution of the Nation's capital 
metro system.
    I yield back.
    Mr. Hice. I thank the gentleman.
    The chair notes the presence of one of our colleagues from 
the House of Representatives. We appreciate very much your 
interest in the topic today and welcome your participation.
    I would ask unanimous consent that Mr. Raskin from Maryland 
be allowed to fully participate in today's hearing. And without 
objection, so ordered.
    Glad to have you today.
    Mr. Connolly. Mr. Chairman, could I also ask that Mr. 
Delaney of Maryland be added to that list as well?
    Mr. Hice. Without objection, so ordered.
    Mr. Connolly. I thank my friend.
    Mr. Hice. Yes, sir.
    We'll hold the record open for 5 legislative days for any 
members who would like to submit a written statement.
    We'll now recognize our panel of witnesses. I'm pleased 
today to welcome Mr. Paul Wiedefeld, the general manager of 
Washington Metropolitan Area Transit Authority; Mr. Dennis 
Anosike, chief financial officer of the Washington Metropolitan 
Area Transit Authority; and Mr. Mark Goldstein, Dr. Goldstein--
thank you for joining us--director of physical infrastructure 
issues for the U.S. Government Accountability Office.
    We welcome each of you and appreciate your participation.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. So if you would, please stand and raise 
your right hands.
    Do you solemnly swear or affirm that the testimony you're 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you very much. You can be seated.
    Please let the record reflect that the witnesses answered 
in the affirmative.
    In order to allow time for discussion, we would appreciate 
very much if you would please limit your testimony to 5 
minutes. Your entire written statement will be made part of the 
record.
    And with that, Mr. Wiedefeld, we will get started. I'm 
honored to recognize you for 5 minutes.

                       WITNESS STATEMENTS

                  STATEMENT OF PAUL WIEDEFELD

    Mr. Wiedefeld. Good afternoon, and thank you, Vice Chair 
Hice and Ranking Member Connolly and members of the 
subcommittee. I am Paul Wiedefeld, general manager and CEO of 
WMATA, known as Metro. With me today is Metro CFO Dennis 
Anosike.
    Since I appeared before this committee on December 2, 2016, 
Metro continues to make progress on our top three priorities, 
which are to improve safety, service reliability, and fiscal 
management. In particular, I am especially pleased with our 
advancements in implementing corrective action plans and 
recommendations of the FTA and the NTSB and the results we're 
seeing from SafeTrack.
    As you know, SafeTrack accelerates 3 years' worth of work 
into approximately 1 year. Twelve of the 16 SafeTrack surges 
have been completed, and the work that has been accomplished 
under SafeTrack has been significant.
    For example, over 28,000 wooden ties have been replaced, 
which is more than was done in the past 2 years alone. Over 
20,000 linear feet of grout pad have been replaced, which would 
have taken 2-and-a-half years to accomplish. In addition to the 
track work that is the primary focus of SafeTrack surges, we 
are working across the system to address issues like the water 
intrusion in the Red Line.
    As a result of these actions, we reduced track-related 
delays by 7 percent in 2016, including delays caused by smoke, 
fire, and arcing insulators. To sustain this progress, at the 
conclusion of SafeTrack, we will begin an industry standard 
preventive maintenance program to further reduce service 
disruptions due to track failures and create opportunities to 
identify and repair track problems before they disrupt daylight 
time rail service.
    I want to thank the GAO for their highly professional 
manner in which it conducted its review of SafeTrack. As noted 
in our letter, we--which accompanied the GAO report, Metro 
concurs with the findings and conclusions in the report and is 
already working to address the recommendations.
    However, we are concerned that the report does not 
accurately reflect the true level of crisis and urgent safety 
challenges the agency was facing almost 1 year ago. Metro 
needed to make real-time decisions to address urgent NTSB 
recommendations and FTA safety directives. We moved swiftly and 
worked closely with FTA on the SafeTrack plan and schedule.
    Turning to our financials. Last week, the Metro board 
approved the fiscal year 2018 capital operating budgets. We 
closed a projected $290 million shortfall with management 
actions to improve efficiency and reduce Metro's head count, 
reductions in rail and bus service, fare increases, and 
increased local jurisdiction funding. The fiscal year capital 
budget builds on the success of improved investments with $1.2 
billion in critical safety and reliability work.
    As you may recall, in recent years, the agency was not 
spending all of its funding program for capital projects. In 
fiscal year 2015, it spent only 65 percent. In fiscal year 
2016, this was improved to 85 percent. And in the current year, 
we will be spending 100 percent of the program capital dollars. 
The PRIIA commitment of $150 million from the Federal 
Government, matched by $50 million from each of the State of 
Maryland, the Commonwealth of Virginia, and the District of 
Columbia, represents approximately 25 percent of Metro's 
capital budget.
    Due to this generous support of the Congress, new safe and 
more reliable trains are serving more customers. Over the past 
year, we have delivered over 300 new railcars, 7000 railcars, 
going from 8 to 20 cars per month.
    With the approval of the fiscal year 2018 budget, we need 
to turn our attention to addressing Metro's long-term financial 
challenges. Recognizing that we are at a critical juncture, I 
have already begun to determine Metro's capital and operating 
requirements going forward and will come out with those next 
month. We have been and will continue to work with the 
stakeholders in the region as we move forward in solving some 
of the long recognized financial issues facing the agency.
    Finally, while my written testimony provides more detail, I 
would like to highlight our Back2Good initiative, which focuses 
on actions to improve the customer experience and reliability 
of service.
    We have established specific performance measures, which I 
will hold all Metro employees accountable for achieving. For 
example, our goal is to reduce passenger offloads dueto railcar 
failures by 25 percent. We will do this by increasing the 
number of 7000 series trains while retiring the 1000 and 4000 
series, our oldest, least reliable, and a safety concern by the 
end of 2017, and focusing the remaining legacy fleet to--
focusing on the remaining legacy fleet to reduce delays 
associated with propulsion, doors, and brake issues.
    Another goal is to reduce customer delays from track 
defects by 50 percent. This will be done as we complete 
SafeTrack and improve and move forward with that preventive 
maintenance program.
    I will close by thanking Congress for your continued 
support of Metro through Federal funds, particularly the PRIIA 
funds, which are invested in long-deferred improvement to the 
system. You have my full commitment that I will continue 
working to get Metro back to good.
    [Prepared statement of Mr. Wiedefeld follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    Mr. Hice. Thank you very much.
    Mr. Anosike, do you have any oral statement that you would 
like to make?
    Mr. Anosike. Thank you, Mr. Chairman, and thank you for the 
invitation. I look forward to the questions from the committee.
    Mr. Hice. Okay, sir. Thank you very much.
    Mr. Goldstein, you're recognized for 5 minutes.

             STATEMENT OF MARK L. GOLDSTEIN, PH.D.

    Mr. Goldstein. Thank you, Mr. Vice Chairman, and thank you, 
Mr. Chairman, and members of the subcommittee. Good afternoon. 
Thank you for the opportunity to testify on GAO's recent review 
of WMATA's SafeTrack initiative. My testimony is based on a 
report we issued earlier this month.
    Recent inquiries into WMATA's Metro rail system have 
revealed a range of serious safety issues. In response to some 
of these issues, as well as the backlog of track maintenance, 
WMATA announced in May 2016, it was undertaking SafeTrack, a 
large scale rehabilitation project. The SafeTrack project is 
overseen by FTA.
    GAO was asked to review a range of safety and oversight 
issues regarding WMATA. This report examined the extent to 
which WMATA's planning and implementation of SafeTrack was 
consistent with leading project management practices, as well 
as steps taken by FTA to oversee SafeTrack.
    In our review, we found the following: First, WMATA's 
planning of SafeTrack did not fully align with leading project 
management practices. While WMATA generally followed leading 
practices to coordinate with stakeholders, it did not 
comprehensively collect and use data on the condition of its 
assets, analyze project alternatives, or develop a project 
management plan before starting work. WMATA did not follow 
these practices because it believed it needed to start work 
immediately to address critical safety issues.
    Although WMATA inspected track assets when planning 
SafeTrack, those inspections were not comprehensive and did not 
collect data on the condition of all track infrastructure, such 
as all interlockings where trains crossed from one track to 
another. As a result, WMATA's decision makers may not have had 
sufficient information to develop project objectives and to 
properly prioritize SafeTrack work.
    Though WMATA developed three alternatives for SafeTrack, it 
did not determine the costs or impacts of each alternative or 
assess them to determine which approach may have resulted in 
greater efficiencies, lower costs, or less disruption for 
riders in local jurisdictions.
    Before WMATA began SafeTrack, it lacked a comprehensive 
project management plan, which is a key tool to ensure a 
project is completed on time, within budget, and according to 
quality standards. WMATA does not have a policy that requires 
and includes relevant procedures for how to carry out these 
planning activities for large scale projects. Without such a 
policy and procedures, WMATA lacks a framework plan to do 
future projects so that they achieve their objectives.
    We also found out WMATA's implementation of SafeTrack 
generally did align with leading project management practices. 
Specifically, WMATA officials collected information on the work 
being performed during SafeTrack. WMATA officials also 
collected lessons learned during and after each surge and used 
those lessons during subsequent maintenance and planning 
efforts.
    Additionally, WMATA developed new organizationwide quality 
control and assurance programs and a framework, and is 
implementing them for the first time through SafeTrack.
    Thank you, Mr. Chairman. This concludes my testimony. I'll 
be happy to respond to any questions that you have.
    [Prepared statement of Mr. Goldstein follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
      
    Mr. Hice. Thank you very much.
    As we begin our questions, I would like to begin by 
recognizing myself for 5 minutes.
    Mr. Wiedefeld, one of the areas of great concern and 
interest, frankly, to me is the fatigue management policy. Can 
you explain what that is and why it was put in place?
    Mr. Wiedefeld. Yes. Basically, we're following the lead of 
other major transit or transportation industries, which is not 
to have the workforce just work continuously, particularly as 
there are overtime opportunities and things of that sort. So 
what we have implemented is a policy in effect that on the 
seventh day you had to take a day off. We just feel that's 
consistent with the overall culture we're trying to create in 
the agency, and we think it's, you know, the right thing to do 
for our employees and our passengers.
    Mr. Hice. Okay. So--and that's good. Not to work 7 days in 
a row, you certainly don't want, but doesn't that create some 
problems with overtime? How does it work as it relates to 
overtime?
    Mr. Wiedefeld. It does create some problems. Right now--the 
policy was actually established by the board. The contract that 
we have with our employees allows the most senior person to get 
that work. We have been going--we have not been giving that 
work to that person, again, for the safety reasons perspective. 
So we are actually in a--we're taking it to court. We lost in a 
grievance to an arbiter on that issue, and we are taking that 
to court to see if that can be overturned.
    Mr. Hice. Okay. So a person works 40 hours a week, 
whatever, then we're talking overtime, and you are required 
then to go to the most senior people first to offer overtime.
    Mr. Wiedefeld. Yes, sir.
    Mr. Hice. If they don't want to do it, you go to the next 
senior person and work your way down. Okay. What happens, is 
there--that senior person, do they still receive payment?
    Mr. Wiedefeld. We have been paying them, because in the 
contract we are required to do that. But again, from a safety 
perspective, again, we made the judgment that we thought it was 
more important for safety to pay that person not to work that 
seventh day and then go to the next person in seniority.
    Mr. Hice. So you pay the person not to work.
    Mr. Wiedefeld. Yes, sir.
    Mr. Hice. And then you have to pay someone else to work.
    Mr. Wiedefeld. Yes, sir.
    Mr. Hice. So you're paying time-and-a-half to not work and 
then time-and-a-half for someone else to work.
    Mr. Wiedefeld. Yes, sir.
    Mr. Hice. All right. That, to me, helps explain some 
budgetary problems. I think it probably does to all of us.
    A January presentation on the 2018 budget indicates roughly 
an $81 million--you're anticipating $81 million in overtime 
cost. Is that correct?
    Mr. Wiedefeld. Yes, sir.
    Mr. Hice. Can that be corrected, adjusted?
    Mr. Wiedefeld. It can be, and we're working on that. We're 
doing a number of things. One is to get that ruling overturned 
where we don't have to offer that work. The other is, we are 
focusing on absenteeism, workers' comp, long-term absenteeism, 
and overtime, in general.
    But I do have to say, overtime in the transit industry is a 
standard. You anticipate overtime. There is rationale for it. 
You have two big peak periods that you have to meet, and in 
fact, it's a financially good decision to pay overtime rather 
than bring in more people and all the associated--costs 
associated with that, particularly in terms of post-employment 
benefits and things of that sort, and pensions.
    So it is a standard within industry to use overtime, but we 
have to use it very tightly. And the key is, in our business, 
if someone doesn't show up, you basically have to get someone 
to run that route or drive that train, and you go to overtime. 
So you want to make sure that you're having people show up for 
work. So making sure that they're not calling in sick. 
Obviously, they can call in sick.
    Mr. Hice. So absenteeism is a problem?
    Mr. Wiedefeld. It is an issue that I'm focusing on to bring 
that down, yes, sir.
    Mr. Hice. All right. Well, how are you going to bring it 
down?
    Mr. Wiedefeld. We actually wrote a new policy on March 1, 
which basically outlines how many, quote, unexcused absences, 
meaning you call up and you're sick. You're allowed to get 
sick, but after so many, basically we can start to do 
discipline. We also----
    Mr. Hice. And what is that discipline?
    Mr. Wiedefeld. Up to termination.
    And then the other thing we've done is to make sure that 
supervisors, for anyone that's out for more than 2 days, then 
it has to go to medical, another supervisor making those 
decisions to grant additional days off for sickness, so things 
of that sort that we're trying to tighten up on.
    Mr. Hice. What would you say is your biggest challenge in 
controlling staffing cost?
    Mr. Wiedefeld. I think that one of the biggest challenges 
we have is to continue to meet the customer demands with the 
limited dollars we have. I mean, we went through quite a 
discussion in terms of reducing hours of service to do the 
preventive maintenance, and we went through a very hard 
discussion in terms of having to cut back services for people 
that need transit to get to work, to get to do their lives. So 
that is probably the biggest challenge, is not having enough 
finances to support what the community is asking us to do.
    Mr. Hice. Okay.
    I'm going to now recognize Mr. Connolly, the ranking 
member, for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman. I do want to say to 
the chairman, I think his questions are quite pertinent on 
personnel, but I also want to say Mr. Wiedefeld is the first 
general manager, in my memory, who has had the intentional 
fortitude to impose discipline. So workers have been held 
account for misdeeds, inspectors who falsified inspection 
safety inspections have been fired, operators who blew through 
red lights after being cautioned to pay attention have also 
been held accountable, up to and including termination.
    We, I think most of us up here, on a bipartisan basis, want 
to strengthen your ability, not on an arbitrary basis, not in 
any way to compromise due process, but we feel, I think on a 
bipartisan basis, people need to be held accountable. And there 
is a personnel problem on Metro. When we look at various 
problems, we've got a financial problem, that has to be 
addressed. We've got an operational problem in terms of 
physical infrastructure, which we're working on. We also have a 
workforce issue, and that workforce has been allowed to, I 
think, slip, and--but I've got to give Mr. Wiedefeld credit. 
He's the first general manager, in living memory, to have the 
willingness to expend political capital to address those 
issues. And I would hope, on a bipartisan basis, we help 
strengthen his ability to do that.
    I don't know if you want to comment on that, Mr. Wiedefeld.
    Mr. Wiedefeld. No. The accountability starts with me, sir, 
and--but I expect that from everyone that works at Metro.
    Mr. Connolly.Right.
    Mr. Goldstein, we requested a GAO report, and we thank you 
for getting back to us in a timely fashion. And--but there's a 
little bit of a sense in the report, and I don't even mean this 
inferentially critical, but you almost could write in a perfect 
world. They didn't come up with a business plan that normally 
would be expected. We should have, in advance, had certain 
standards in place and practices in place. We should have had 
the FTA reviewing it before we did it and all that.
    But my sense from Mr. Wiedefeld and Metro was they 
determined that the situation they inherited was sufficiently 
dire that we couldn't exactly do that perfectly. We didn't have 
another 6 months, because public safety was at risk and that 
was the urgency of the moment. And so, yeah, we were willing 
maybe to not have everything in place we would ideally like in 
order to proceed.
    Your comment.
    Mr. Goldstein. Sure. I understand that point, and we 
certainly discussed it with Metro for quite some time. We don't 
disagree that there wasn't a major safety problem. I ride the 
Red Line every day. I certainly want a safe train myself.
    But I also----
    Mr. Connolly. No wonder GAO is so critical of Mr. 
Wiedefeld. He rides on that Red Line.
    Mr. Goldstein. Well, it's only between Medical Center and 
Friendship Heights, really, that I worry.
    But I think that's also not prudent or appropriate to 
embark on any major capital project, spending up to $130 
million without a plan. A lot of this wasn't news. There's a 
whole alphabet soup of agencies and organizations that have 
been providing Metro with safety violations and recommendations 
for a long time for living memory, really, as you call it.
    Mr. Connolly. Right.
    Mr. Goldstein. And so it's a surprise that there was no 
planning, on the shelf even, that you could use, that the kinds 
of information that they had was not sufficient.
    Mr. Connolly. Mr. Wiedefeld, do you want to respond to 
that? That's a fair point.
    Mr. Wiedefeld. It is. But in what I saw at the time, what 
I've said is I started November 30. If I had known what I know 
now, I would have started November 30. We were at that state. I 
could not live with myself not doing something as quickly as we 
could. I'm a planner by training. I mean, my degree is in that, 
I understand that, and I appreciate that, but with what I had 
in front of me, I felt I had to move and move very quickly.
    Mr. Connolly. Now, one of the things that I want to make 
sure you have an opportunity to address is, SafeTrack is one 
thing, but that's only about sort of the innards and the rails. 
It's not about the railcars, and yet 60 percent of the safety 
incidents or accidents that have occurred actually involve 
railcars, not the rails themselves, and I wonder if you could 
address that.
    And secondly, doesn't that underline the criticality of 
PRIIA funding continuing so we can afford and--stay in our line 
in the queue and afford to replace the cars the chairman talked 
about correctly, that have to be replaced? There's a safety and 
reliability issue.
    Mr. Wiedefeld. Exactly. The track work we've been doing--we 
have been doing on the worst of the worst, and we'll continue 
to work on the track work, and that's part of the preventive 
maintenance program. But at the end of the day, for the 
customers, as we get that better and better, it's the railcar 
experience. So, for instance, offloadings, or delays caused by 
failing railcars.
    The 7000 series is key to solving that. We've already seen 
that, so it's important. That is funded by the PRIIA dollars, 
so it's important that we keep those flowing into the system. 
That also gets rid of the 1000 series, which is the one that 
NTSB says we need to get off the property as soon as possible, 
so we'll do that by the end of 2017, and also the 4000 series, 
which is our least performing car, but also has safety-related 
issues. By getting both of those out of the system, we will 
both improve safety and increase the reliability. We also can 
manage the fleet totally differently.
    Right now, we have to what we call belly those cars, those 
series. We have to put them in between cars that don't have the 
safety issues. So every night we go through this tremendous, 
you know, three-level chess of rearranging the entire fleet. By 
getting those out of the system, we can start running 
consistent consists, meaning all 6000s, all 5000s, and all 
7000s, and that will improve the overall performance of it, as 
well as even the communication to our customers through the PA 
system on the cars.
    Mr. Connolly. Mr. Chairman, I know my time is up, but you 
raised a point. I wonder if on behalf of the two of us we could 
just ask Mr. Wiedefeld to address, because it didn't get 
addressed, which was there seems to be a problem with the 
weight or the configuration of the 7000 cars on the rail 
tracks, which I think the chairman raises a very good point, 
I've heard it, too. If the chairman would indulge, following up 
on his own question.
    Mr. Hice. Sure, if you would.
    Mr. Wiedefeld. Okay. Yes. I mean, the 7000s are slightly 
heavier than the other fleet, but remember, you know, the 
weight of the cars changes during the day. So you could have an 
8000 series of--or 8000 car train with 6000 series and have 
much more weight, depending on the time of day.
    So what we've done is we've actually gotten an independent 
analysis, particularly on the acoustic side and on the weight 
side to find out, because we've gotten some issues in some 
communities both in terms of noise and vibration. So we have 
gotten some--an outsider to basically take a look at that, and 
we're working with the little--our local communities to 
literally to go into their houses and monitor what is the base 
and then do that. As soon as we find out what if--what in and 
if there are issues there, we will address them. But so far, 
that car has performed very, very well.
    Mr. Connolly. Thank you.
    Mr. Hice. You're welcome.
    I would ask unanimous consent that Representative Comstock 
of Virginia be allowed to fully participate in today's hearing. 
Without objection, so ordered.
    We welcome you. Thank you for your interest in the topic 
today.
    At this time, I'd like to recognize the real chair of this 
Subcommittee on Government Operations, Chairman Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. I thank each of you 
for being here.
    Mr. Wiedefeld, thank you for your continued service in 
trying to make sure that WMATA is once again returned to 
greatness. And so I just want to thank you there. I've got a 
few questions that I want to jump into right away.
    But before I do that, obviously, Mr. Connolly is keenly 
interested in this, and he's right. I'm willing to support his 
efforts to make sure that we get this right, and that means 
potentially expending political capital in ways that I wouldn't 
normally spend them in an effort to make sure that this transit 
system serves the Federal workforce and the greater 
metropolitan D.C./metropolitan area in a way that it should.
    And so I reaffirm that commitment to my good friend, Mr. 
Connolly, and as well reaffirm that to Ms. Comstock, who is 
here. There is not a time that goes by where she doesn't urge 
me, I will say it in a nice term, to actually stay engaged with 
regards to the transit system.
    But, Mr. Wiedefeld, part of the----
    Mr. Connolly. Can I just say to my friend, I thank him so 
much for his commitment.
    Mr. Meadows. And you have it. Thank you. Thank you.
    The fiscal 2018 budget, I think, in the shortfall that's 
there, you've identified, I guess, 800 positions to be 
eliminated. Is that correct?
    Mr. Wiedefeld. Yes, sir.
    Mr. Meadows. And so in doing that, are these positions 
currently occupied or vacant?
    Mr. Wiedefeld. It's a combination. The 800 are some 
primarily management first, and they were vacancies where I 
could find vacancies, but there were also filled jobs. And then 
the remaining portion of them will be as we cut service, 
because in the budget, we do actually cut some rail service and 
some bus service, so that will be the operators associated with 
that and some of the supervisors.
    Mr. Meadows. All right. So as we look at that, most of 
those--those 800 positions that you will eliminate, it doesn't 
get you all the way from an operational standpoint to where you 
need from a budget standpoint. Is that correct?
    Mr. Wiedefeld. No, sir.
    Mr. Meadows. So the shortfall that we're looking at will be 
potentially how many dollars?
    Mr. Wiedefeld. In fiscal year 2019?
    Mr. Meadows. Yeah.
    Mr. Wiedefeld. We don't have that identified. I'm coming 
out in April with my estimate both on capital and operating 
looking forward with 2019 and into the future, so I will be 
putting out--that out shortly. But the reality is, is I will 
continue to look for ways to save dollars and be more 
productive, but the margins are getting smaller, smaller where 
I can impact that.
    Just given the nature of the business, we're a labor-
intensive business because we need the people out there. We're 
an energy-intensive business both in terms of electricity and 
diesel, and we're a capital-intensive business. That's what we 
do. And then on top of it, we're a 40-year-old business that 
needs that reinvestment. So all those, I think, need to be 
considered together as we look forward to the future of this 
agency.
    Mr. Meadows. Well, and we're willing do that, and I'm 
committed to both of my colleagues from Virginia to do that, as 
well as some of the colleagues from Maryland as well, and 
Eleanor Holmes Norton.
    However, I guess my concern is, is we need to put it in 
separate buckets, because right now, we've got a capital 
investment that is needed, and certainly I see that. Those 
numbers can be all over the board in terms of what is needed 
and what would translate into a safe system. And yet the 
operating concern, it looks like we're on a trajectory that 
will not correct itself without unbelievable fare hikes or some 
kind of systemic changes. Would you agree with that?
    Mr. Wiedefeld. Yes. The cost curve on the operating side 
exceeds what we can anticipate from many type of revenues.
    Mr. Meadows. So if that's the case, I guess one of your 
partners would be the transit union, Amalgamated Transit Union. 
How have they reacted to some of your cost-cutting policy 
endeavors to date?
    Mr. Wiedefeld. Generally, obviously, they're concerned, but 
I can tell you a lot of the line employees understand what 
we're doing. They've been around for a number of years. They've 
seen some of the conditions we've gotten to. So I think overall 
supportive of what we're trying to do, but clearly----
    Mr. Meadows. So let me ask it in a different way that's 
probably a little bit less diplomatic. In what ways are the 
unions providing a speed bump for actually getting this fiscal 
house--or getting our fiscal house in order?
    Mr. Wiedefeld. I think they will be coming out, my 
understanding is, tomorrow with their plans to try to help on 
this--in this area. We continue to reach out to the union to 
work together on solving these issues, because we're not going 
to solve them, either one of us independently. We have to work 
through these together.
    Mr. Meadows. All right. So with that being said, and with 
the chairman's indulgence, I'll close out here.
    My big concern, and this is the message that needs to be 
taken back to your board, obviously to the unions, to each one 
of you that are here representing WMATA, is that it is going to 
take a joint combined effort to get this right.
    I'm willing to help in a bipartisan way. I think the 
members of this committee are willing to help in a bipartisan 
way from a congressional standpoint, but I don't want to feel 
like I'm getting way out on a limb and not having a willing 
partner. And so that message needs to go to everyone, if you 
catch the drift.
    And in doing so, if they're willing to do that, I'm willing 
to actually make a commitment. I get more complaints about 
WMATA in--here in the District than anything else, and it's 
normally on a day where we've got a line down or somebody--and 
yet at the same time, I think we've got to make a real 
commitment to get it right.
    I'm a huge fan of yours. I will take one issue. A $400,000 
video was not well timed. And I'm just saying, when you look at 
a Back2Good video and you're spending those kind of dollars 
when we're not back to good yet, your marketing people 
anticipated in a way that they shouldn't have, being a 
marketing guy. I'll leave the WMATA up to you. Maybe check with 
us next time on the marketing before you get it good. Okay?
    Mr. Wiedefeld. Thank you, Mr. Chairman. Thank you for your 
support.
    Mr. Connolly. Would my friend--I just can't resist in 
listening to him. There was an old song by the Kingston Trio 
about the Boston transit system called, ``Charlie and the 
MTA,'' and the line was: ``Did he ever return? No, he never 
returned, and his fate is still unlearned.'' And we don't want 
to descend to that level.
    Mr. Meadows. I yield back.
    Mr. Hice. And we appreciate the gentleman sharing the line 
rather than singing it for us. We're grateful for that.
    Just out of curiosity, how do your labor costs compare with 
other transit systems?
    Mr. Wiedefeld. I think they're pretty average. I mean, the 
reality is, when we negotiate contracts, we are compared to 
other properties. That's how those contracts are developed. We 
are within range. Some things are below, some things are above. 
We're probably a little bit on the higher end because of the 
economy of this region, you know, and the wealth of this region 
for sure. But just to give you a sense, you know, an operator 
with--like a bus operator, a rail operator with 30 years here 
makes just about $70,000, just to give you a sense.
    Mr. Hice. I'd like to see a comparison, but----
    Mr. Wiedefeld. Yes, sir.
    Mr. Hice. --at this point the chair recognizes Ms. Norton 
for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman. And I do appreciate 
your work and the work of my good friend, Mr. Connolly, in 
keeping this matter before the Congress.
    I note that our real chairman, shall we call him, said this 
was a joint effort. So I do want to, before I get to my 
question, indicate that there is a missing partner. Let's just 
call him a free rider, the Federal Government.
    Every other actor that depends on Metro contributes to 
WMATA. I don't know how long the Federal Government thinks it 
can get away without doing so, but I can tell you this: The 
only business or enterprise I know that closes down when WMATA 
closes down is the Government of the United States located here 
in this region. And I just think that is an elephant in this 
room.
    There's another--I want to welcome all of you. I do want to 
get a little deeper into the long-term financial needs.
    Mr. Meadows. The gentlewoman said an elephant in the room. 
She's not being partisan, is she?
    Ms. Norton. Indeed, I was referring to my friendly 
elephants.
    Mr. Connolly. I'm about to start singing.
    Ms. Norton. The circus is in town everybody.
    The--page 5 has your operating budget in some detail. It 
really isn't any narrative on your long-term needs, and yet 
this is not a new issue. Staff went back and looked back over 
40 years, found in 1979, and here's the language that WMATA 
risked being in a, quote, continuing financial crisis. If that 
hasn't come to--if that has hasn't come to be, nothing else 
had. So that's 40 years ago.
    Then if we go back 11 years, to 2004, the narrative gets to 
be a systemic service meltdown condition as early as 3 years 
from now. Well, 3 years from then was 2007, and so I don't know 
if meltdown has been going on all that time or not, but, you 
know, the metaphors are all over the place. And of course, the 
metaphor of the day is death spiral.
    And that's about raising fares, it's what you're doing, 
cutting services, that's what you're doing. That wasn't always 
the case back in 1979, that kind of juxtaposition, but that's 
where we are today.
    You don't use those hyperboles, and here I'm quoting from 
your written testimony, Metro's unsustainable cost model. Isn't 
that the same thing, all--all language aside? Isn't that the 
same thing as a death model--a death spiral, your notion of an 
unsustainable cost model?
    Mr. Wiedefeld. I think what I was--what I was referring to 
there is that that can be solved through additional 
jurisdictional contributions. I mean, there's other ways, you 
know, that could be solved, but I just don't think that's 
sustainable to keep going back to the local jurisdictions, keep 
going back to the riders, and we have to think of this 
differently.
    Ms. Norton. You know, wait a minute, the riders are 
different from the local jurisdictions. You don't think it's 
sustainable to go back, for example, to the local jurisdictions 
and say give us a model that would be essentially a tax 
dedicated to WMATA? Have you asked for that? Do you think 
that's what the local jurisdiction should be doing?
    Mr. Wiedefeld. Sure. What I was referring to is that the 
current model is not sustainable. Where, as Congressman 
Connolly was talking about----
    Ms. Norton. But I'm saying, then you named--you know, you 
named a couple of actors. I'm asking about the actor that you 
actually go back to, which is WMATA members themselves, or the 
three jurisdictions. I'm asking you whether you think some form 
of dedicated payment, you can call it whatever you want to, 
I'll call it a dedicated tax, is what is needed for a 
sustainable model for running this system.
    Mr. Wiedefeld. I think we do need a sustainable source of 
revenue for going forward in the system, yes.
    Ms. Norton. So that you wouldn't have to every year go back 
to and ask for. I thank you.
    Now, you are doing very well in cutting, and you have said 
that some of these positions that you are cutting are filled 
and some are not. So what--so you haven't gotten to layoffs 
yet. Is that what you're telling us?
    Mr. Wiedefeld. Oh, no, we have had layoffs.
    Ms. Norton. And those have been almost entirely in 
management positions?
    Mr. Wiedefeld. Yes.
    Ms. Norton. When do we cut to the quick and you get to 
layoffs for operating personnel?
    Mr. Wiedefeld. It starts before July 1, before we basically 
start to pull down the service.
    Ms. Norton. So there will be layoffs----
    Mr. Wiedefeld. Yes.
    Ms. Norton. --in personnel who operate this system 
beginning with the next budget?
    Mr. Wiedefeld. Yes.
    Ms. Norton. How much money? I do want to ask you, before my 
time runs out, I wrote you a letter regarding something that 
surprised me, and I understand you're working on it, but I need 
to bring it to your attention, that on the DBE, and we just 
passed the FAST Act, that's my other committee, and that's 
disadvantaged businesses. This is required by the Federal 
courts, that you cut that from a goal of 22 percent to 15 
percent. I really do need an explanation for that, and I don't 
require it today, but I needed to bring it to your attention.
    Finally, how much would it take on an annual basis, giving 
what you know now, and let's project 5 years, would it take to 
run a system that is well run and continues to update its 
maintenance? How much would that system cost us? Surely we have 
a 5-year, at least, projection.
    Mr. Wiedefeld. Right. And that is what I'm coming out in 
April with, which is both the short term, next 3 years, and out 
to a 10-year.
    Ms. Norton. So that would let us know how much money we 
need in the large?
    Mr. Wiedefeld. Yes, ma'am.
    Ms. Norton. Thank you. That would be very useful to know, 
then we'd face some realistic figures.
    Thank you very much, Mr. Chairman.
    Mr. Hice. I thank the gentlewoman.
    The chair now recognizes Mrs. Comstock for 5 minutes.
    Mrs. Comstock. Thank you, Mr. Chairman. I appreciate the 
opportunity to be able to visit with you here today.
    I know about--I guess probably about a year ago when we 
were addressing these concerns at the beginning of the process, 
we talked about the--using outside contractors and how that 
might be able to generate some savings as we were trying to get 
more of this work done in a quick timeframe.
    Are you able to report examples of how that was utilized 
and what kind of savings you saw?
    Mr. Wiedefeld. We have been using it extensively on the 
SafeTrack program. We've had a number of contractors there. 
We've had a number of contractors that come in to basically do 
track inspection, help us with track inspection. We continue to 
bring in contractors to look at different things that we 
currently do to see if there's better ways to do them either 
within the existing framework or other frameworks.
    We're in the procurement process for removing some of the 
Metro access to a private vendor or potential for private 
providers to----
    Mrs. Comstock. Where is that in the process, because I know 
we talked about that last year?
    Mr. Wiedefeld. We've gotten the bids in and we're reviewing 
them.
    Mrs. Comstock. So when would we have----
    Mr. Wiedefeld. Next month or two. You know, there's 
sometimes you go back and forth, you ask them questions, so 
depends on how much time they need for some of those questions. 
So we'll continue to do that.
    You know, I think there are opportunities to do things a 
lot smarter, be more productive, and some of it with our own 
forces and some of it with outside sources.
    Mrs. Comstock. Are you able to provide us with some numbers 
on that and documents? For example, we did this on track work, 
are we talking about saving thousands, millions, what kind of 
savings?
    Mr. Wiedefeld. I can pull together what--how much we've 
applied towards it and sum up productivity from it.
    Mrs. Comstock. Okay. Because, you know, I mean, I have 
heard still some frustration with some of our localities and 
folks who were looking at, you know, as they're going to, you 
know, be dealing with some of the costs coming their way, and 
the counties that enough isn't going on in this way. And if 
there's something that's preventing you from being able to do, 
you know, whether it's current existing contractor or whatever 
it is, it would be helpful to identify that for us, because 
they're saying they don't see that happening.
    So do you have anything I can tell them to assuage their 
concerns?
    Mr. Wiedefeld. I think, you know, we have to--we also have 
to live within the contract bounds that we have, and we have to 
live within some Federal regulations and law, so we have to do 
it within that context. But I am not--you know, I have been 
open to if there is an opportunity to use and it makes business 
sense to use private sector, then we do it and----
    Mrs. Comstock. Can you give us an example of some of them 
that have been done?
    Mr. Wiedefeld. Well, I mean, the biggest would be the 
track. I mean, we're spending, I don't know the numbers off the 
top of my head, but tens of millions of dollars in the--on the 
private sector to do that work.
    Mrs. Comstock. It's all private sector?
    Mr. Wiedefeld. Yes.
    Mrs. Comstock. But not at this point?
    Mr. Wiedefeld. Not all. Again, we continue to use our own 
people, but we supplemented that extensively with the private 
sector.
    Mrs. Comstock. Okay. Well, that would just be helpful maybe 
comparing what the costs of those outside contractors are 
versus the legacy staff that are doing things, and if that 
provides us some point of comparison, that would be helpful.
    Also, in terms of using technology in order to help bring 
costs down, do you have any examples of how you've been able to 
do that, and again, if there are any limitations and you're 
utilizing new technologies?
    Mr. Wiedefeld. We are using technologies and we're 
exploring some others, particularly, you know, with iPhones and 
things of that sort now for recording data that we're getting 
in realtime, and then obviously to monitor it and do things of 
that sort. We've reached out and, actually, we're working with 
the Network Rail, which is the company that runs London's 
system where they move to that, for instance, on their track 
inspection.
    We're very interested in the technology advances on track 
inspection, really, whether it's vehicles that take pictures 
and are constantly monitoring to how you're entering data when 
you're physically out there. All that is some of the things 
that we're exploring right now.
    Mrs. Comstock. So are we not--like what percent of that 
work in evaluating the track is done sort of pen and pad still 
or on paper versus technologically----
    Mr. Wiedefeld. Sure.
    Mrs. Comstock. --recording it for posterity?
    Mr. Wiedefeld. Well, it is recorded for posterity, but a 
lot of it is done in paper initially, so that's why we want to 
get out of that if we can. But also we have vehicles that ride 
the system now that are basically X-raying the tracks, for 
instance, in the----
    Mrs. Comstock. But of the people--because we had--you know, 
when we had the hearing and everyone was finger pointing that, 
well, they made me--remember at the last hearing we had, a 
witness said that they were forced to submit a false report or 
that people were--I guess not the witness, but they were saying 
that's what they had heard. I think it was the--a union member 
said they were filing false reports because they were being 
told they had to.
    And then on the other side, you know, we had no record of 
it. So are we resolving that? So instead of all these back and 
forths and who said what and lengthy, costly investigations, do 
we just have a way of recording these things as they happen so 
that there is really no room to lie?
    Mr. Wiedefeld. No. We do, and we did it. I mean, that's 
how--that's what supported some of the actions that I took. I 
needed that information to support it. You know, whenever I let 
someone go, I have to be able to support it, and so we had that 
information. We had to do our homework to make sure it was done 
well so that we could support the decision we made, but as you 
recall, we terminated almost half of that division.
    Mrs. Comstock. No. And I appreciate it, and I know you did 
a lot of hard work on that, but it seems, because of not using 
technology, it took a lot longer in terms of investigating it 
instead of saying, well, let's roll the videotape.
    Mr. Wiedefeld. That's a good point.
    Mrs. Comstock. You know, when we have--you know, when 
you're playing a game and you got to look back and you have the 
videotape sitting there, you can see in or out of the lines. 
And I think if we have technology to do that, that's--so it 
will be helpful for us if we could like see that in action. If 
you can just provide us perhaps, provide the committee a video 
showing how this is being done and implemented so we can 
actually see what's really happening and how in the future we 
won't be able to have that finger pointing, we'll actually know 
if somebody did their job on Tuesday or Wednesday or Thursday 
or if they didn't do it at all.
    Mr. Wiedefeld. Yes.
    Mrs. Comstock. Thank you, Mr. Chairman.
    Mr. Connolly. Mr. Chairman, I know that there are some 
members who wanted to be here and because of other committee 
assignments couldn't, and I know we're going to have a few days 
to submit questions for the record. I will also be submitting 
some questions, so we don't do a second round, but on what does 
good look like as we move forward in the future. Thank you, Mr. 
Chairman.
    Mr. Hice. You're welcome, and there will be additional 
questions. And I ask unanimous consent that members have 5 
legislative days to submit those questions for the record. And 
without objection, so ordered.
    I do want to thank each of our witnesses for your 
participation. Thank you for taking time to be with us today.
    If there's no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 3:01 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
             
               
               
                                  [all]
</pre></body></html>
